U
N                                                 MINE SAFETY AND HEALTH
                                                  ADMINISTRATION


    Office of Inspector General—Office of Audit




                                                  MSHA MUST MORE CONSISTENTLY
                                                  DETERMINE THE NUMBER OF REQUIRED
                                                  INSPECTIONS AND MORE TRANSPARENTLY
                                                  REPORT INSPECTION RESULTS FOR METAL
                                                  AND NONMETAL MINES




                                                                      Date Issued:   September 29, 2011
                                                                   Report Number:      05-11-004-06-001
U.S. Department of Labor                                   September 2011
Office of Inspector General
Office of Audit
                                                           MSHA MUST MORE CONSISTENTLY
                                                           DETERMINE THE NUMBER OF REQUIRED
                                                           INSPECTIONS AND MORE TRANSPARENTLY
BRIEFLY…                                                   REPORT INSPECTION RESULTS FOR METAL
Highlights of Report Number 05-11-004-06-001,              AND NONMETAL MINES
issued to the Assistant Secretary of Mine Safety
and Health.                                                WHAT OIG FOUND

WHY READ THE REPORT                                        We found no evidence that individual MNMS&H
                                                           inspectors or supervisors had intentionally manipulated
Under provisions of the Federal Mine Safety and Health     the mine inventory or mine status assignments to
Act of 1977, as amended (Mine Act), MSHA is                reduce the number of required inspections. However,
mandated to conduct regular inspections of all mines.      MNMS&H’s policies and practices resulted in the
During fiscal year (FY) 2010, MSHA’s Office of Metal       understatement of the number of required regular safety
and Nonmetal Mine Safety and Health (MNMS&H)               and health inspections and the overstatement of the
conducted 16,143 regular safety and health inspections     reported inspection completion rate. Specifically,
at 11,068 mines.
                                                            •	    We could not determine the appropriateness of
Between October 2007 and April 2011, the OIG                      MNMS&H’s assignments of mine status because it
received four separate, but similar written complaints            did not issue clear, objective criteria for
related to MNMS&H’s completion of regular safety and              determining a mine’s status.
health inspections. These complaints alleged that           •	    MNMS&H’s business rules allowed an “attempted
MNMS&H was (a) intentionally leaving active mines “off            inspection” to eliminate the requirement to
the books” or misclassifying the operating status of              complete a regular safety and health inspection at
mines to reduce the number of required inspections and            732 mines that reported mining activity.
(b) recording a completed inspection when no
                                                            •	    MNMS&H often counted inspections in its 

inspection had been performed.
                                                                  computation of the inspection completion rate 

                                                                  before they received supervisory review. 

WHY OIG CONDUCTED THE AUDIT
                                                           WHAT OIG RECOMMENDED
As part of our audit oversight responsibility and in
response to the complaints we received, the OIG            We recommended the Assistant Secretary for Mine
performed work to answer the following questions:          Safety and Health direct MNMS&H to:

      1.	 Did MNMS&H assign the appropriate                •	    design objective criteria for assigning a mine status
          operating status to each mine?                         and implement a system of controls to assure the
                                                                 consistent implementation of these criteria;
      2.	 Did MNMS&H conduct the correct number of         •	    design and implement procedures to assure that
          required regular safety and health inspections         information on all new mines is communicated to
          for each mine?                                         the responsible field office in a timely manner;
                                                           •	    examine and implement ways to increase the
      3.	 Was there evidence that each recorded                  probability that inspectors will arrive for regular
          regular safety and health inspection was               safety and health inspections on days that a mine is
          performed?                                             operational;
                                                           •	    more clearly and completely report the actual
Our audit work covered all regular safety and health
                                                                 results of its efforts to conduct regular safety and
inspections mandated by the Mine Act for
                                                                 health inspections;
metal/nonmetal mines during FY 2010.
                                                           •	    require supervisors to document their review and
                                                                 acceptance of each regular safety and health
READ THE FULL REPORT                                             inspection report before it is included in MNMS&H’s
To view the report, including the scope, methodology,            computation of its inspection completion rate.
and full agency response, go to:
                                                           The Assistant Secretary agreed with our
http://www.oig.dol.gov/public/reports/oa/2011/05-11-       recommendations and committed to developing and
004-06-001.pdf.                                            implementing corrective actions.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                               MNM Safety and Health Inspections
                                   Report No. 05-11-004-06-001
                                                              U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results in Brief .............................................................................................................. 2


Objective 1 — Did MNMS&H assign the appropriate operating status to each 

              mine?..................................................................................................... 4

         MNMS&H lacked assurance it was computing the number of required 

         regular safety and health inspections based on an appropriate mine 

         status.................................................................................................................... 4


         Finding 1 — The validity of MNMS&H's mine status assignments could not 

                    be confirmed. .................................................................................... 4


Objective 2 — Did MNMS&H conduct the correct number of required regular 

              safety and health inspections for each mine?................................... 8

         MNMS&H's business rules inappropriately reduced the number of regular 

         safety and health inspections required. ................................................................ 8


         Finding 2 — MNMS&H did not complete required regular safety and health 

                    inspections at all metal/nonmetal mines. .......................................... 8


Objective 3 — Was there evidence that each recorded regular safety and health 

              inspection was performed?............................................................... 12

         MNMS&H counted inspections as completed before they received 

         supervisory review.............................................................................................. 12


         Finding 3 — Mine files contained evidence that regular safety and health 

                    inspections recorded had been performed, but supervisory 

                    review was not timely...................................................................... 12


Appendices
         Appendix A Background ..................................................................................... 17

         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 19

         Appendix C Acronyms and Abbreviations .......................................................... 25

         Appendix D MSHA Response to Draft Report .................................................... 27

         Appendix E Acknowledgements ......................................................................... 31





                                                                                       MNM Safety and Health Inspections
                                                                                           Report No. 05-11-004-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                               MNM Safety and Health Inspections
                                   Report No. 05-11-004-06-001
                                                      U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                            Office of Inspector General
                                                    Washington, D.C. 20210




September 29, 2011

                                Assistant Inspector General’s Report


Joseph A. Main
Assistant Secretary for Mine Safety and Health
U.S. Department of Labor
1100 Wilson Boulevard
Arlington, Va. 22209

The Office of Inspector General (OIG), Office of Audit, conducted a performance audit
of the regular safety and health inspection process managed by the Mine Safety and
Health Administration’s (MSHA) Office of Metal and Nonmetal Mine Safety and Health
(MNMS&H).

MNMS&H performs these inspections to protect miner safety and health. The Federal
Mine Safety and Health Act of 1977 (Mine Act), as amended, requires MNMS&H to
conduct regular safety and health inspections of the Nation’s metal/nonmetal mines—
four times per year at underground mines and twice per year at surface mines. During
fiscal year (FY) 2010, MNMS&H conducted 16,143 regular safety and health
inspections 1 at 11,068 mines.

For each year from 1977 to 2007, MNMS&H reported that it had not completed all of the
required regular safety and health inspections. In October 2007, MSHA implemented
the “100 Percent Plan” to ensure the agency completed all mandatory inspections by
the end of each FY. In each subsequent FY (2008 – 2010), MNMS&H has reported
completing all required regular safety and health inspections. See Appendix A for more
background information.

Between October 2007 and April 2011, the OIG received four separate, but similar
written complaints related to MNMS&H’s completion of regular safety and health
inspections. These complaints alleged that MNMS&H was (a) intentionally leaving
active mines “off the books” or misclassifying the operating status of mines to reduce
the number of required inspections and (b) recording a completed inspection when no
inspection had been performed.

As part of our audit oversight responsibility and in response to the complaints we
received, the OIG performed work to answer the following questions:


1
    MSHA identifies varying inspection activities with specific “activity codes”. This audit focused on Regular
    Safety and Health inspections, coded as E01 activities.

                                                                              MNM Safety and Health Inspections
                                                        1                         Report No. 05-11-004-06-001
                                          U.S. Department of Labor – Office of Inspector General



    1. Did MNMS&H assign the appropriate operating status to each mine?

    2. Did MNMS&H conduct the correct number of required regular safety and health
       inspections for each mine?

    3. Was there evidence that each recorded regular safety and health inspection
       was performed?

Our audit work covered all regular safety and health inspections mandated by the Mine
Act for metal/nonmetal mines during FY 2010. To gain an understanding of MNMS&H’s
inspection process, we reviewed federal laws and regulations and MNMS&H policies
and procedures; interviewed key MNMS&H headquarters, district, and field office
officials; and analyzed and identified key processes and critical decision and control
points. For a random sample of 182 mines, we reviewed mine operating statuses, the
number of regular safety and health inspections required, and inspection documents.
Our objectives, scope, methodology, and criteria are detailed in Appendix B.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

RESULTS IN BRIEF

The audit found no evidence that individual MNMS&H inspectors or supervisors had
intentionally manipulated the mine inventory or mine status assignments to reduce the
number of required inspections. However, MNMS&H’s policies and practices resulted in
the understatement of the number of required regular safety and health inspections and
the overstatement of the reported inspection completion rate. This occurred because
the mine status definitions established by MNMS&H national office were interpreted
differently by individual districts and because MNMS&H “business rules” reduced the
number of regular safety and health inspections required. In addition, MNMS&H
counted inspections as completed prior to supervisory review. As a result, although
MNMS&H reported an inspection completion rate of 100 percent in FY 2010, 732 out of
13,081 mines (5.6 percent) the OIG determined to be in an inspectable status received
only an “attempted inspection.”

We could not determine the appropriateness of the “mine status” assigned and used by
MNMS&H to determine the number of required regular safety and health inspections at
each mine. This occurred because vague national definitions resulted in districts using
varied criteria to make mine status determinations, and because MNMS&H did not
require districts to document the rationale for setting or changing a mine’s status. In
addition, a problem with MSHA’s online process for registering new mines may have
diminished the ability of field offices to timely monitor these mines. As a result,

                                                            MNM Safety and Health Inspections
                                           2                    Report No. 05-11-004-06-001
                                                     U.S. Department of Labor – Office of Inspector General



MNMS&H had no assurance that it was computing the correct number of required
inspections at each mine.

In addition, MNMS&H’s business rules allowed an “attempted inspection” 2 to eliminate
the requirement to complete a regular safety and health inspection. An attempted
inspection was typically recorded when the inspector found no one at the mine during
the unannounced visit to conduct a regular safety and health inspection. This occurred
because many metal/nonmetal mines operate on an irregular or less-than-full-time
schedule. While inspectors often returned and conducted an inspection at these mines
at a later date, MNMS&H policy did not require them to do so. During FY 2010,
MNMS&H recorded attempted inspections at 2,226 mines. Of these, 732 mines (33
percent) with reported miner work hours did not receive a regular safety and health
inspection during the year.

Regular safety and health inspections recorded in MSHA’s inspection database were
documented by inspector notes and reports. However, in 29 out of 32 (91 percent) of
the cases that we reviewed, MNMS&H included the inspections in its computation of its
inspection completion rate prior to supervisory review. Since supervisory review can
result in a determination that additional inspection work should be performed,
inspections should not be included in the computation of MNMS&H’s inspection
completion rate until a supervisor has reviewed and accepted the work.

We made five recommendations to the Assistant Secretary for Mine Safety and Health.
In summary, we recommended that MNMS&H design objective criteria for assigning a
mine status; implement procedures to assure that information on all new mines is
communicated to the responsible field office; examine and implement ways to increase
the probability that inspectors will arrive for regular safety and health inspections on
days that a mine is operational; more completely report the actual results of its efforts to
conduct regular safety and health inspections; and require supervisors to document
their review and acceptance of each regular safety and health inspection report before it
is included in MNMS&H’s computation of its inspection completion rate.

In responding to our draft report, the Assistant Secretary for Mine Safety and Health
agreed with all of our recommendations and stated that MSHA was fully committed to
addressing the issues that are identified in this report. His response pointed out the
MNMS&H had begun developing a plan for determining mine status classification based
on objective criteria prior to our audit and they are working with MSHA’s Program
Evaluation and Information Resources (PEIR) to develop a report (Mine Status Review
Report) that identifies mine status using these objective criteria. He also stated that in
the future MNMS&H will report the number of completed inspections and the number of
attempted inspections to present more transparency in the agencies inspection
completion rate.



2
    An event identified in this report as an attempted inspection is referred to by MSHA as a Mine Idle
    activity and coded as an E28 event.

                                                                         MNM Safety and Health Inspections
                                                       3                     Report No. 05-11-004-06-001
                                           U.S. Department of Labor – Office of Inspector General



The Assistant Secretary expressed concern with our statement that MNMS&H performs
inspections to protect miner safety and health. He emphasized that Congress gave
“mine operators with the assistance of miners the primary responsibility to prevent
unsafe and unhealthful conditions and practices in mines.” Our statement and
conclusion are based on the requirements of the Mine Act that describe MSHA’s roles
and responsibilities in setting safety and health standards, identifying instances of
noncompliance (including patterns of violations), and compelling mine operators to take
timely corrective actions. These are integral components of the overall system for
providing miners with a safe and healthy work environment.

The Assistant Secretary’s entire response is contained in Appendix D.

RESULTS AND FINDINGS

We found no evidence that individual MNMS&H inspectors or supervisors had
intentionally manipulated the mine inventory or mine status assignments to reduce the
number of required inspections. However, MNMS&H’s policies and practices resulted in
the overstatement of the reported inspection completion rate. Although MNMS&H
reported an inspection completion rate of 100 percent in FY 2010, 732 mines (5.6
percent) received only an “attempted inspection.”

Objective 1 — Did MNMS&H assign the appropriate operating status to each
              mine?

      MNMS&H lacked assurance it was computing the number of required regular
     safety and health inspections based on an appropriate mine status.


Finding 1 — The validity of MNMS&H's mine status assignments could not be
             confirmed.

We could not determine the appropriateness of MNMS&H’s assignments of mine status
because it did not issue clear, objective criteria for determining a mine’s status, and did
not require inspectors to justify the basis for changes in a mine status. Moreover, a
problem in the online system for registering new mines may diminish the ability of the
appropriate field office from timely monitoring these mines for changes in operating
status. As a result, MNMS&H lacked assurance it was computing and performing the
correct number of required regular safety and health inspections.

MNMS&H Policy Lacked Clear Objective Criteria

MNMS&H policy defined five possible mine status designations as follows (underlining
added for emphasis):

     Active - A mine that operates on a full-time basis. Temporary closure due
     to unusual or unforeseen circumstances, such as strikes, mine disasters,

                                                             MNM Safety and Health Inspections
                                             4                   Report No. 05-11-004-06-001
                                            U.S. Department of Labor – Office of Inspector General



      temporary maintenance shutdowns, etc. does not change this status.
      These are mines/mills where you could reasonably expect to conduct the
      statutory four or two regular inspections.
      Intermittent - An intermittent mine can reasonably be expected to operate
      sometime during the year. These operation times will vary due to the
      demand for the product(s) or seasonal conditions. These are operations
      where two inspections per year for underground mines and one per year for
      surface mines and/or facilities would reasonably be expected to occur.
      Non-Producing - A non-producing mine is an operation where production
      has not yet begun or has ceased, but employees perform some work at the
      mine/mill. These are operations where two inspections per year for
      underground mines and one per year for surface mines and/or facilities
      would reasonably be expected to occur.
      New Mine - A new mine has been assigned a mine identification number
      but no work has begun at the mine site. Once physical development has
      begun, a status change is required.
      Abandoned - An abandoned mine will be abandoned for the foreseeable
      future.

These definitions were subject to individual interpretation. As a result, MNMS&H
districts used their own unwritten criteria for defining a mine’s operating status. Districts
defined a mine status based on one or more factors, such as mine employee hours,
number of mine employees, or conditions related to the weather or economy. A number
of MNMS&H district and field office officials stated that individual inspector judgment
also played a role in determining each mine’s operating status. Table 1 illustrates the
varying criteria used by three districts to define an active mine.




                                                              MNM Safety and Health Inspections
                                              5                   Report No. 05-11-004-06-001
                                            U.S. Department of Labor – Office of Inspector General



                                          Table 1
                         Districts Defined Active Status Differently
                                         (FY 2010)

        MNMS&H District          Criteria Used to Define Active Mine

        Rocky Mountain           520 mine employee hours or greater per quarter

                                 Consistent number of mine hours and employees
        North Central            reported per quarter

        Southeastern             Any mine employee hours reported per quarter


Within the same district, field offices were also inconsistent in their definitions of mine
operating statuses. Table 2 illustrates the inconsistent criteria used by two field offices
within the same district to define an intermittent mine.

                                          Table 2
                    Field Offices Defined Intermittent Status Differently
                                         (FY 2010)

        North Central Field
        Offices                     Criteria Used to Define Intermittent Mine

                                    No mine employee hours reported for 1 or 2
        Fort Dodge, Iowa            quarters

        Peru, Illinois              Mine shut down during the winter


As a result of these varying criteria, MNMS&H assigned different mine statuses to
mines with similar operating characteristics. Table 3 illustrates examples of this
inconsistency.




                                                              MNM Safety and Health Inspections
                                              6                   Report No. 05-11-004-06-001
                                              U.S. Department of Labor – Office of Inspector General



                                            Table 3

                         Miner Work Hours (# of Miners)

                 Quarter 1    Quarter 2     Quarter 3     Quarter 4      Assigned Mine Status
District          FY 2010      FY 2010       FY 2010       FY 2010      (Required Inspections)

Southeast        3,325 (7)     2,417 (6)     4,187 (6)    2,868 (5)             Active (2)

N. Central       4,192 (7)     2,037 (5)     3,489 (7)    3,809 (7)           Intermittent (1)



Southeast        1,107 (2)     1,092 (6)     1,813 (3)    1,069 (2)             Active (2)

N. Central       2,072 (6)     2,523 (5)     1,838 (5)    2,351 (5)           Intermittent (1)


MNMS&H officials stated that they have been working for the past 7 months to develop
more specific, data driven criteria for assigning a mine’s status. This effort has been
aimed at reducing the inconsistency in mine status determinations, reducing and
providing better oversight of the discretion exercised by district officials in assigning a
mine status, and more effectively allocating inspection resources. MNMS&H anticipates
implementing these criteria following the issuance of our audit report.

Mine Status Changes Lacked Adequate Documentation

MNMS&H policy does not require (a) inspectors to justify setting or changing a mine
status, and (b) field office supervisors to approve mine status changes made by
inspectors. Since mine status changes impact the number of required regular safety and
health inspections, the absence of these controls creates a risk that inspectors could
inappropriately reduce their workloads by changing a mine status without justification or
oversight.

For 96 of 108 mines 3 (89 percent), we found that inspectors did not justify the basis for
setting or changing a mine’s operating status by attaching supporting source
documentation (such as copies of emails or summaries of telephone calls from mine
operators).

Inspectors set or change a mine status simply by checking a box on the mine
information form. This form does not require any explanation to justify the basis for a
mine status change and an inspector may change a mine’s operating status without
physically visiting a mine in order to validate information provided by the mine operator.
While we were told that field office supervisors review and approve a sample of mine
status changes, we found no evidence to support this. In fact, the form itself has no
place to record supervisory review or concurrence.

3
 Of the 182 mine files sampled, 108 contained an MSHA Form 2000-209 documenting the mine’s
operating status.

                                                                MNM Safety and Health Inspections
                                                7                   Report No. 05-11-004-06-001
                                           U.S. Department of Labor – Office of Inspector General



MNMS&H Field Offices May Not Have Been Aware of All New Mines Registrations

A deficiency in the online process that operators may use to request a Mine ID for a
new mine may result in MNMS&H field offices being unaware of some new mines. This
reduces the ability of field office inspectors to monitor these mines and identify changes
in operational status that would initiate required safety and health inspections.

When an operator notifies MSHA of the intention to open a new metal or nonmetal
mine, MSHA issues a Mine ID and assigns the new mine to the appropriate MNMS&H
district and related field office. The operator has 30 days to complete a legal identity
document (LID) and is obligated to notify MNMS&H when site development begins.
Although new mines do not require a regular safety and health inspection, site
development would cause a change in the mine’s operating status and initiate
inspections. MNMS&H uses the “Mines without LID Submitted” report to identify and
monitor the status of new mines that have not submitted an LID. However, according to
MSHA officials, the MSHA Standardized Information System (MSIS) e-gov interface for
Mine ID requests submitted online does not include an ability to assign the mine to a
field office at the time the request is processed. In turn, the absence of a field office
designation results in the mine being incorrectly omitted from the “Mines without LID
Submitted” report. This creates a risk that new mines will not be identified and
monitored in a timely manner by the appropriate field office.

For six new mines in our audit sample, the Southeastern District could locate only the
electronic document requesting the Mine ID, but no corresponding LID. Yet, none of
these mines appeared on the “Mines without LID Submitted” report. Based on our
inquiry, MNMS&H identified 126 new mines, as of July 6, 2011, that were incorrectly
omitted from this management report. As a result, the ability of the responsible field
office to monitor the mine for changes in its operational status was diminished.

Objective 2 — Did MNMS&H conduct the correct number of required regular
              safety and health inspections for each mine?

      MNMS&H's business rules inappropriately reduced the number of regular safety
      and health inspections required.


Finding 2 — MNMS&H did not complete required regular safety and health
            inspections at all metal/nonmetal mines.

MNMS&H’s business rules understated the number of required regular safety and
health inspections for 732 mines because they automatically removed the requirement
to complete a regular safety and health inspection when an attempted inspection was
recorded. As a result, MNMS&H’s inspection completion rate was overstated by 5.6
percent. Missed inspections potentially place miners at risk because hazardous
conditions in the mines may not be identified and corrected.



                                                             MNM Safety and Health Inspections
                                            8                    Report No. 05-11-004-06-001
                                          U.S. Department of Labor – Office of Inspector General



Attempted Inspections Removed the Requirement for a Regular Safety and Health
Inspection

MNMS&H attempted but did not conduct regular safety and health inspections during
FY 2010 at 732 mines that reported mining activity. However, because its policy allowed
attempted inspections to remove the regular safety and health inspection requirement,
MNMS&H reported an inspection completion rate of 100 percent. This practice resulted
in some of these mines not receiving a regular safety and health inspection for multiple,
consecutive years.

Many metal/nonmetal mines operate on an irregular or less than-full-time schedule. This
means that an inspector arriving unannounced at a mine site to conduct a regular safety
and health inspection, may be unable to perform the inspection because the mine is not
operating on that day. In the case of these “attempted inspections,” MNMS&H’s
business rules removed the requirement for that regular safety and health inspection.
While inspectors could, and often did, return to the mine at another time to conduct a
regular safety and health inspection, MNMS&H’s policy did not require them to do so. In
FY 2010, MNMS&H inspectors recorded attempted inspections at 2,226 mines. We
determined that 881 of these mines (40 percent) did not receive a regular safety and
health inspection. As shown in Table 4, the number of times each district recorded
attempted inspections and the frequency with which they successfully returned to
complete a regular safety and health inspection varied.

                                         Table 4

             Mines with an Attempted Inspection Recorded during FY 2010

                              Mines having        Mines having an Attempted
                              an Attempted        Inspection, but no Regular
                               Inspection        Safety and Health Inspection

               District          Number            Number           Percentage

          Northeastern             568               243                  43

          Southeastern             112                8                   7

          North Central            564               343                  61

          South Central            441                63                  14

          Rocky Mountain           219                76                  35

          Western                  322               148                  46

          TOTAL                   2226               881                  40




                                                            MNM Safety and Health Inspections
                                             9                  Report No. 05-11-004-06-001
                                            U.S. Department of Labor – Office of Inspector General



Of the 881 mines where the required regular safety and health inspection was removed
by an attempted inspection, 149 mines reported no miner work hours for the entire year.
Therefore, the eliminated regular safety and health inspection posed no risk to miners.
However, the remaining 732 mines all reported varying levels of mining activity during
the year as summarized in the following table.

                                           Table 5

       Indicators of Mining Activity Levels at Mines Receiving Only an Attempted 

                                       Inspection 


                     # of Miner Hours Worked                   # of Miners Employed

                    Total      Average                       Total        Average
                               per Mine       Range                       per Mine    Range
                 (732 Mines)                             (732 Mines)

  1st Quarter        314,643      429.8      0 – 8,485          1,408           1.9     0 - 27

  2nd Quarter        135,823      185.6      0 – 5,753            731           1.0     0 - 15

  3rd Quarter        307,678      420.3      0 – 7,571          1,239           1.7     0 - 13

  4th Quarter        343,683      469.5      0 – 8,164          1,223           1.7     0 - 12

  FY 2010          1,101,827     1,505.2
  Total

  Average per        275,457      376.3                         1,150           1.6
  Quarter




                                                              MNM Safety and Health Inspections
                                             10                   Report No. 05-11-004-06-001
                                                   U.S. Department of Labor – Office of Inspector General



Table 6 shows a breakdown of these 732 mines by the total miner work hours reported
by each mine for FY 2010.

                                                 Table 6


             Breakdown of Mines Missing Regular Safety and Health Inspections
                                  by Total Miner Hours

                                                                                      Number
           FY 2010 Reported Miner Hours                                               of Mines

           1 – 200                                                                          202 


           201 – 500                                                                        124 


           501 – 1000                                                                       125 


           1001 – 5000                                                                      238 


           5001 or more                                                                      43

              TOTAL                                                                         732 



This practice can result in individual mines operating for long time periods without a
regular safety and health inspection because (a) MSHA’s business rules require only
one regular safety and health inspection per year at mines designated as “intermittent”
and (b) attempted inspections could recur in consecutive inspection cycles. An analysis
of a judgmental sample 4 of 71 out of the 881 mines determined that as of July 26, 2011,
the number of days that had elapsed since MNMS&H had completed a regular safety
and health inspection at these mines ranged from 387 to 1,511 days with an average of
821 days. For example, MNMS&H recorded a completed regular safety and health
inspection at an intermittent mine on November 26, 2008. It recorded an attempted
inspection on July 13, 2010. The next regular safety and health inspection was recorded
on October 12, 2010. This represented a span of 685 days between the two regular
safety and health inspections. During FY 2010, this mine employed an average of 10
miners and reported a total of 25,728 miner work hours.




4
  To obtain the 71 mines, we selected the first two (2) mines from each field office that missed an E01
inspection during FY 2010. If a field office did not have two (2) mines that missed an E01 inspection
during FY 2010, then the one (1) mine that missed an E01 inspection was selected. The results of a
judgmental sample cannot be statistically projected to the universe of 881 mines.

                                                                      MNM Safety and Health Inspections
                                                    11                    Report No. 05-11-004-06-001
                                           U.S. Department of Labor – Office of Inspector General



Objective 3 — Was there evidence that each recorded regular safety and health
              inspection was performed?

      MNMS&H counted inspections as completed before they received supervisory
     review.


Finding 3 — Mine files contained evidence that regular safety and health
            inspections recorded had been performed, but supervisory review
            was not timely.

There were documents in MNMS&H mine files to show that regular safety and health
inspections recorded in MSIS had been performed. However, MNMS&H often counted
inspections in its computation of the inspection completion rate before they received
supervisory review. This occurred because MNMS&H policy did not require supervisors
to review and accept inspection reports before they became part of the inspection
completion calculation.

Inspectors and field office supervisors explained that at the completion of inspection
tasks, an inspector enters information into the Inspectors’ Portable Applications for
Laptop (IPAL) where it is subsequently uploaded into MSIS and becomes part of the FY
completion rate. They stated that the upload of this information typically occurs before
review and acceptance of the inspection report by a supervisor. Our audit work
confirmed their explanation. We found evidence of supervisory review for 138 out of 142
regular safety and health inspections in our sample. However, analysis of a judgmental
sample of inspection reports that contained both evidence of supervisory review and the
date of that review, revealed that 29 of 32 (91 percent) were uploaded to MSIS (and
therefore included in the inspection completion rate) prior to the date of the supervisory
review. Since supervisors did sometimes require inspectors to perform additional
inspection work as a result of their reviews, inspections should not be included in
MNMS&H’s computation of its regular safety and health inspection completion rate prior
to final supervisory acceptance.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Mine Safety and Health Administration:

 1.	 Design objective, national criteria for assigning a mine status and implement a 

     system of controls to assure the consistent implementation of these criteria; 


 2.	 Design and implement procedures to assure that information on all new mines is 

     communicated to the responsible field office in a timely manner; 


 3.	 Examine and implement ways to increase the probability that inspectors will arrive
     for regular safety and health inspections on days that a mine is operational;



                                                             MNM Safety and Health Inspections
                                            12                   Report No. 05-11-004-06-001
                                           U.S. Department of Labor – Office of Inspector General



 4.	 More clearly and completely report the actual results of its efforts to conduct regular
     safety and health inspections, including the number of mines that reported miner
     work hours, but did not receive a regular safety and health inspection; and

 5.	 Require supervisors to document their review and acceptance of each regular
     safety and health inspection report before it is included in MNMS&H’s computation
     of its inspection completion rate.

We appreciate the cooperation and courtesies that MSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
  for Audit




                                                             MNM Safety and Health Inspections
                                            13                   Report No. 05-11-004-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                               MNM Safety and Health Inspections
              14                   Report No. 05-11-004-06-001
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                 MNM Safety and Health Inspections
                15                   Report No. 05-11-004-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                               MNM Safety and Health Inspections
              16                   Report No. 05-11-004-06-001
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix A
Background

Mine Safety and Health Administration (MSHA)

MSHA’s purpose is to prevent death, disease, and injury from mining and to promote
safe and healthful workplaces for the Nation's miners. Under provisions of the Federal
Mine Safety and Health Act of 1977, as amended, MSHA is mandated to (a) conduct
regular inspections of all mines; (b) investigate mine accidents, complaints of retaliatory
discrimination filed by miners, hazardous condition complaints, and petitions for
modification of mandatory safety standards; (c) develop improved mandatory safety and
health standards; (d) assess and collect civil monetary penalties for violations of mine
safety and health standards; and (e) review for approval mine operators' mining plans
and education and training programs.

MSHA’s Office of Metal and Nonmetal Mine Safety and Health (MNMS&H) enforces the
Mine Act at all metal/nonmetal mining operations in the United States. MNMS&H
consists of a small headquarters office in Arlington, Va., 6 district offices, and 47 field
offices and field duty stations located throughout the United States and Puerto Rico.
During calendar year (CY) 2010, there were approximately 12,000 mines that employed
over 225,000 miners and produced about 80 minerals and commodities.

Regular Safety and Health Inspections

Inspections are an important part of MSHA’s oversight program. During unannounced
visits to mine sites, MSHA inspectors verify mine operators’ compliance with statutory
requirements and determine whether an imminent danger exists. When inspectors
observe violations of safety or health standards, they issue citations and/or orders to
mine operators. Operators are required to correct the violation and may be assessed a
monetary penalty.

Section 103(a) of the Mine Act requires MSHA to conduct regular safety and health
inspections of the Nation’s mines in their entirety—four times per year at underground
mines and twice per year at surface mines. To effectively allocate its inspection
resources, MSHA assigns and considers each mine’s “status” in implementing this
inspection requirement. MNMS&H policy establishes five different mine status
classifications – active, intermittent, non-producing, new, and abandoned. Active mines
receive the full complement of regular safety and health inspections prescribed in the
Mine Act. Intermittent and non-producing mines receive half the number of regular
safety and health inspections referenced in the Mine Act. New and abandoned mines do
not receive regular safety and health inspections.

For each year from 1977 to 2007, MSHA did not complete all of the inspections
mandated by law. In October 2007, MSHA implemented the “100 Percent Plan” to
ensure the agency completed all mandatory inspections by the end of each fiscal year
(FY). In each subsequent FY (2008 – 2010), MSHA has reported completing all

                                                             MNM Safety and Health Inspections
                                            17                   Report No. 05-11-004-06-001
                                         U.S. Department of Labor – Office of Inspector General



mandatory mine inspections. In addition, during CY 2010, MSHA reported that
mandatory inspections at the Nation's more than 14,000 surface and underground
mines resulted in 172,035 citations/orders and assessed monetary fines of $146.4
million.

OIG Hotline Complaints

Between October 2007 and April 2011, the OIG received four separate, but similar
complaints related to MNMS&H’s completion of required regular safety and health
inspections. In summary, the complaints alleged that:

      •	 An MSHA supervisor was intentionally leaving new or operating mines “off the
         books” and misclassifying a mine’s operating status as “intermittent” or
         “abandoned” to reduce the number of required inspections;
      •	 MNMS&H officials had instructed supervisors to count an attempted
         inspection as a regular safety and health inspection; and
      •	 MNMS&H inspectors did not inspect every mine in its entirety.




                                                           MNM Safety and Health Inspections
                                          18                   Report No. 05-11-004-06-001
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

We performed audit work to determine whether MNMS&H performed all of the regular
safety and health inspections required by the Mine Act during FY 2010. Specifically, we
answered the following questions:

    1. Did MNMS&H assign the appropriate operating status to each mine?

    2. Did MNMS&H conduct the correct number of required regular safety and health
       inspections for each mine?

    3. Was there evidence that each recorded regular safety and health inspection
       was performed?

Scope

Our audit included MNMS&H inspection and oversight activity occurring in FY 2010.
MNMS&H conducts 27 types of inspections. To answer our audit objectives, we focused
on the specific inspection performed by MNMS&H inspectors to comply with Section
103(a) of the Mine Act, the regular safety and health inspection. Regular safety and
health inspections are the most comprehensive inspections conducted of
metal/nonmetal mines.

For objective 1, our scope covered an analysis of the operating statuses assigned by
MNMS&H to a statistical sample of 182 mines for FY 2010. We also reviewed mine
status data for (a) these 182 mines for FYs 2007-2010 and (b) a listing of 126 new
mines provided by MNMS&H for FYs 2010-2011.

For objective 2, our scope covered an analysis of the regular safety and health
inspections computed by MNMS&H for a statistical sample of 182 mines. We also
reviewed 881 mines that received an attempted inspection but no corresponding regular
safety and health inspection during FY 2010.

For objective 3, our scope covered an analysis of mine information forms, inspection
reports, and inspector field notes for the 182 mines statistically sampled for FY 2010.
From these 182 we also reviewed IPAL inspection upload dates, provided by MNMS&H,
for a judgmental sample of 45 regular health and safety inspections conducted during
FY 2010 at these mines.

To accomplish our audit objectives, we focused our review on whether there was any
evidence to support that a regular safety and health inspection was performed. We did
not address the thoroughness of an inspection, such as whether all required regular
safety and health inspection procedures and activities were performed.

                                                            MNM Safety and Health Inspections
                                           19                   Report No. 05-11-004-06-001
                                            U.S. Department of Labor – Office of Inspector General



Methodology

To accomplish our objectives, we obtained an understanding of MNMS&H’s regular
safety and health inspection process. We reviewed federal laws and regulations and
MNMS&H policies and procedures; interviewed key MNMS&H headquarters, district,
and field office officials; and analyzed and identified key processes and critical decision
and control points. In addition, we selected random samples of regular safety and health
inspections and tested various attributes of the inspection process.

Data Reliability

In planning and performing the audit, we relied on computer-generated data from MSIS.
For a sample of the mines listed in MSIS, we compared the information in selected data
fields — mine identification number, mine name, mine status, mine status date(s), and
regular safety and health inspections — with source documents in the mine files to
assess the data’s reliability. We determined the data to be sufficient and appropriate for
the purpose of our audit.

Site Visits

We conducted site visits at MNMS&H’s headquarters (Arlington, Va.), and three district
offices - Rocky Mountain (Denver, Colo); North Central (Duluth, Minn); and
Southeastern (Birmingham, Ala).

Sampling

To determine whether MNMS&H completed all regular safety and health inspections
during FY 2010, we reviewed a stratified random sample of metal/nonmetal mines. The
audit universe, based on a listing provided to us by MSHA, consisted of 16,456 mines
assigned to six MNMS&H districts. We used a two-stage risk-based sampling approach.

In the first stage, we grouped the six districts into three strata – high risk, medium risk,
and low risk – based on five factors related to the risk that regular safety and health
inspections might not be performed. These risk factors included the a) ratio of required
inspections to inspectors; b) number of abandoned mines; c) number of mine status
changes leading to a decrease in the number of required inspections; d) number of
mine idle inspections; and e) number of complaints received by the OIG. From each
stratum, we randomly sampled one district: North Central (high risk), Rocky Mountain
(medium risk), and Southeastern (low risk).

In the second stage, we stratified each of these three district’s population of surface and
underground mines into six strata based on their mine operating status as of
September 30, 2010. These strata included mines classified as (i) active; (ii) non-
producing active; (iii) new; (iv) intermittent; (v) abandoned during FY 2010; and
(vi) abandoned during FYs 2007 through 2009. We eliminated from our universe mines
that have been in an abandoned status prior to FY 2007 (i.e., before October 1, 2006).

                                                              MNM Safety and Health Inspections
                                             20                   Report No. 05-11-004-06-001
                                                   U.S. Department of Labor – Office of Inspector General



Since these mines were in an abandoned status before the implementation of MSHA’s
100 Percent Plan in FY 2008, we judged that there was a low risk that MNMS&H
personnel had manipulated their operating status to benefit inspection completion rates.

We randomly selected a statistical sample of mines from each of these six strata
resulting in a sample of 60-61 mines per district and a combined sample of 182 mines
from all three districts for testing purposes. The table below shows our sample of 182
mines by district and mine status.

                                  Audit Sample Composition
                                                             Mine Status
              MNM                    Non-                                  Abandoned     Abandoned
Risk Level
             Districts   Active   Producing   New        Intermittent      10/01/09 to   10/01/06 to   Total
                                    Active                                  09/30/10      09/30/09
              North
  High                    10         5         5             21                10            10         61
             Central
             Rocky
Medium                    11         6         8             15                10            11         61
           Mountain
 Low      Southeast       15         7        8              10                10            10         60
       Total              36         18       21             46                30            31        182


For each mine in the sample, we determined if MNMS&H (1) assigned the appropriate
mine operating status (per MSHA’s criteria); (2) conducted the correct number of regular
safety and health inspections based on our review of the Data Retrieval System mine
employee and hours reported data; and (3) had documentation to indicate that each
regular safety and health inspection recorded in its database had been performed.
Specifically, we reviewed each mine’s correspondence and inspection files.

Assignment of Mine Operating Status

To understand how MNMS&H assigned an operating status to a mine, we interviewed
MNMS&H headquarters and district officials, reviewed definitions established in MSHA
Form 2000-209 (Mine Information Form), and recorded specific criteria identified to us
by officials in each district we visited. Based on this information, we independently
determined an operating status for each of the 182 mines in the audit sample and
compared it to the operating status MNMS&H had assigned. We sought explanations
from district officials for any variances we identified.

Correct Number of Required Inspections

To evaluate if MNMS&H conducted the correct number of required inspections for a
mine, we reviewed criteria established in MSHA’s business rules, and interviewed
MNMS&H headquarters and district officials.

For each of the 182 selected mines, we reviewed and compared the operating status,
as determined by the OIG; the number of required inspections based on an application
of the business rules; and the number of regular safety and health inspections
conducted, as provided by MNMS&H.


                                                                           MNM Safety and Health Inspections
                                                    21                         Report No. 05-11-004-06-001
                                           U.S. Department of Labor – Office of Inspector General



We also received from MNMS&H a list of attempted inspections conducted at 2,226
mines for FY 2010. We analyzed mine and inspection activity data for FY 2010 for 881
of these mines that received an attempted inspection but no corresponding regular
safety and health inspection.

Evidence that Each Mandatory Inspection was Performed

To evaluate if MNMS&H documented that each regular safety and health inspection
was performed, we reviewed inspection and oversight criteria established in the Mine
Act and MSHA policy (e.g., inspection and supervisor handbooks) and interviewed
MNMS&H headquarters and district officials. For each of the 182 selected mines, we
determined whether there was documentation in the MNMS&H inspection files to
indicate that an inspection was performed. Specifically, we reviewed the physical folder
for each regular safety and health inspection conducted and checked for an inspection
event report, inspector field notes, and evidence of supervisory review.

In addition, we evaluated whether regular safety and health inspections were reviewed
by a supervisor prior to being included in MNMS&H’s calculation of its inspection
completion rate. To accomplish this, we selected a judgmental sample of 45 completed
regular safety and health inspections from the 3 districts we visited, and compared the
date of supervisory review with the date the completed regular safety and health
inspection was uploaded to MSIS from IPAL. Of these, only 32 had a corresponding
supervisory review date that we were able to compare to the IPAL upload date provided
by MNMS&H.
In planning and performing our audit, we considered MSHA’s internal controls that were
relevant to our audit objectives by obtaining an understanding of those controls, and
assessing control risk for the purposes of achieving our objectives. The objective of our
audit was not to provide assurance on the internal controls. Therefore, we did not
express an opinion on the internal controls as a whole. Our consideration of MSHA’s
internal controls relevant to our audit objectives would not necessarily disclose all
matters that might be reportable conditions. Because of the inherent limitations on
internal controls, noncompliance may nevertheless occur and not be detected.

We conducted our audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a sufficient basis for our findings and conclusions based on our audit
objectives.

Criteria

We used the following criteria to perform this audit:

   •	 Federal Mine Safety and Health Act of 1977, Section 103 (a) and (h), as 

      amended 


                                                             MNM Safety and Health Inspections
                                            22                   Report No. 05-11-004-06-001
                                       U.S. Department of Labor – Office of Inspector General



•	 Title 30 Code of Federal Regulations (CFR) Part 41, Notification of Legal Identity
•	 Title 30 CFR Part 50, Notification, Investigation, Reports and Records of
   Accidents, Injuries, Illnesses, Employment, and Coal Production in Mines
•	 Title 30 CFR Part 56, Safety and Health Standards -- Surface Metal and
   Nonmetal Mines
•	 Title 30 CFR Part 57, Safety and Health Standards -- Underground Metal and
   Nonmetal Mines
•	 Title 30 CFR Part 58, Health Standards for Metal and Nonmetal Mines
•	 General Accountability Office, Standards for Internal Control in the Federal
   Government, dated November 1999
•	 MSHA Program Policy Manual, Volumes I and IV, dated February 2003
•	 MSHA Regular Safety and Health Inspection Business Rules, dated March 2005
•	 MSHA Form 2000-209, dated September 2006
•	 MSHA 100 Percent Inspection Completion Plan, dated February 2008
•	 MSHA Accountability Program Handbook, dated March 2008
•	 MSHA Metal and Nonmetal Supervisors’ Handbook, dated June 2009
•	 MSHA Performance Management Plan for Managers and Supervisors, dated
   September 2009
•	 MSHA Metal and Nonmetal General Inspection Procedures Handbook, dated
   October 2009
•	 Inspectors’ Portable Applications for Laptop (IPAL) User’s Manual, dated April
   2011
•	 MNMS&H Proposed Mine Classification Status Matrix and Definitions, dated
   June 2011




                                                         MNM Safety and Health Inspections
                                        23                   Report No. 05-11-004-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                               MNM Safety and Health Inspections
              24                   Report No. 05-11-004-06-001
                                     U.S. Department of Labor – Office of Inspector General



                                                                            Appendix C
Acronyms and Abbreviations


CY                           Calendar Year

e-gov                        Electronic Government

FY                           Fiscal Year

IPAL                         Inspector’s Portable Application for Laptop

LID                          Legal Identity

Mine ID                      Mine Identification

MNMS&H                       Office of Metal and Nonmetal Mine Safety and Health

MSHA                         Mine Safety and Health Administration

MSIS                         MSHA Standardized Information System

OIG                          Office of Inspector General




                                                       MNM Safety and Health Inspections
                                      25                   Report No. 05-11-004-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                               MNM Safety and Health Inspections
              26                   Report No. 05-11-004-06-001
                                                            U.S. Department of Labor – Office of Inspector General



                                                                                                                                  Appendix D
MSHA Response to Draft Report




       U.S. Department of Labor                                              AdminlSlration
                                                    Mine Salety and Health Administration
                                                    1100 Wilson Boulevard
                                                    Arlington. Virginia 22209·3939                                                '-.
                                                                                                                                      ,
                                                                                                                                       .
                                                                                                                                  ..'rJ)"
                                                                                                                                     """
                                                                                                                                         '" .
                                                                                                                                   \'rJJ"~"
                                                                                                                                       ~"
                                                                                                                                        J;";9...'
                                                                                                                                        !;';9
                                                                                                                                   , ..~.
                                                                                                                                      ~ ~,'
                                                                                                                                      ""~'
                                                                                                                                         '~   .

        SEP 27 2011
        MEMORANDUM FOR ELLIOT P. LEWIS
                       Assistant Inspector General of Audit

        FROM:                        JOSEPH A. MAIN                    C\ ~ f\ ~
                                     Assistant Secretary of        labo;t;\
                                                                   labo;fu,."\
                                     Mine Safety and Health

        SUBJECT:                                   OIG Draft Audit Report No. 05-11-004-06.Q01 :
                                      Response to DIG
                                      MSHA Must More Consistently Determine the Number of
                                      Required Inspections and More Transparently Report Inspection
                                      Results for Metal and Nonmetal Mines

        Thank you for the opportunity to review your draft audit report.
                                                                 report. The Mine Safety and
        Health Administration (MSHA) will use the audit results to help the Agency improve the
        monitoring and completion of Metal and Nonmetal's (MNM) mandatory regular safety
        and health inspections. We are fully committed to addressing the issues identified in
        your report.

        Below are specific responses to your recommendations.

        OIG Recommendation No 1: Design objective, national criteria for assigning a mine
                    impl8ment a system of controls to assure the consistent implementation of
        status and implement
        these criteria.
              criteria.

        AGREE
        We agree with your recommendation , but it is important to note that the existing
        definitions for mine classification for MNM mines have been in effect for over 30 years.
                                                                                             years.
        Since 1I became Assistant Secretary, we have been reviewing policies and procedures
        to update and improve them.
                                 them. As noted in your report, many mines wor!<
                                                                               work intermittently,
        some less than 1000 hours a year and several less than 200 hours a year. This creates
        a real challenge for MSHA because it is difficult for inspectors to find these intermittent
        mines in an operational status when miners are working
                                                          wor!<ing and potentially exposed to
        safety and health hazards.

        Consistent with our ongoing review of MSHA policies and procedures, MNM began an
        analysis in February 2011, to develop a plan for determining mine status classification
        based on objective criteria. As you recognize in your report,
                                                              report, this effort began before the


             You can   now l ile)'OU.                       WWW MSHA goy.
                             ile )'Our MSHA lorms online at WNW      ~.     ~'s   easy,   ~'s   last. and it~ saves you mooeyl
                                                                                                lasl.                   m01l8y1




                                                                                                 MNM Safety and Health Inspections
                                                              27                                     Report No. 05-11-004-06-001
                                           U.S. Department of Labor – Office of Inspector General




                                             2



DIG audit. MSHA provided the DIGOIG the draft "Mine Status Criteria" for review and
appreciates the audit team's feedback on the draft criteria.

MNM is wor1<ing
         wor1dng with MSHA's Program Evaluation and Information
                                                         [ntannation Resources (PEIR)
Directorate to develop a report (Mine Status Review Report) that identifieS mine status
using these objective criteria. The report will generate a list of mines and display the
existing designated mine status as well as the revised status using the objective criteria.
MNM senior management will review the report on a quarterty basis to determine
appropriate mine status changes.


OIG Recommendation NO.2: Design and implement procedures to assure that
information on all new mines is communicated to the responsible fieJd
                                                                field office in 8 timely
manner.

AGREE
MSHA is aware of minor issues in MSHA's Standardized Information System (MSIS)
associated with mine identification numbers requested by mine operators online and
with an internal report to identify mine operators that have not submitted legal identity
reports. MNM is currently working with PEIR to correct these issues. Additionally,
                                                                         Additionally.
mines assigned New Mine status will be included in the planned Mine Status Review
Report to assure that mines reporting hours will be included. Mines identified as a
result of these changes will receive a status change, as appropriate.
                                                           appropriate, and be included in
inspection calculations.

It is important to note that mines assigned an MSHA identification number may never
begin operating or report hours.
                            hoors. For example,
                                       example, a mine in the South Central District
involved an operator who was unable to obtain financing and never began operation.

OIG Recommendation No.3:  NO.3: Examine and implement ways to increase the
probability that inspectors will arrive for regular safety and health inspections on days
that 8a mine is operational.

AGREE

Existing MNM standard, 30 CFR §§56/57.1
                                     §§56/57.1 000 (Notification of commencement of
operations and closing of mines) requires mine operators to notify MSHA of their mining
              status, whether temporary or permanent. MSHA will reiterate, to the metal
operational status,
and nonmetal mining community, an operator's responsibility under the existing
standard. Many mine operators comply with the standard by contacting the district or
field office directly via phone, fax, or mail. MSHA will provide additional alternatives
                                                                            altematives for
operators to notify the Agency of operating status changes. One alternative available to
mine operators will be a web-based reporting interface. The other alternative
                                                                       altemative will use
MSHA's toll free number. This ~One Call Does It All" approach will allow a mine




                                                                 MNM Safety and Health Inspections
                                            28                       Report No. 05-11-004-06-001
                                           U.S. Department of Labor – Office of Inspector General




                                             3



operator to call the toll free number and provide their start-up or shut-down information.
A customer service representative at the National Contact Center will receive and
process the information. MNM will explore other alternatives to assist the Agency in
identifying operating mines, including collaborating with state and local entities. MSHA
will conduct outreach activities to make the mining community aware of these
alternatives.

OIG Recommendation No.4: More clearly and completely report the actual resufts of
its efforts to conduct regular safety and health inspections, including the number of
mines that reported miner work
                            walk hours, but did not receive 8 regular safety and health
inspection.
AGREE
We believe that our responses to recommendations 1 through 3 help address this
recommendation. However, MNM will report the number of completed inspections and
recommendation.
the number of attempted inspections in order to present more transparency in the
Agency's inspection completion rate.

OIG Recommendation No.5: Require supeNisors
                                       supervisors to document their review and
acceptance of each regular safety and health inspection report before it is included in
MNMS&H's computation of its inspection completion rate.

AGREE
While we agree with your recommendation
                         recommendation,, it is important that we clarify how we plan to
change our existing procedure to respond to the recommendation.

In accordance with Agency policy and procedures, MNM supervisors review all
inspection reports for compliance with policies and procedures;
                                                       procedures; supervisors initial the
reports to indicate that the review and inspection was conducted. MNM policy does not
require supervisors to review these reports prior to the inspector's upload into the data
base. Inspectors are authorized representatives of the Secretary of Labor and
journeyman level professionals trained to conduct complete inspections as required by
the Mine Act. Upon completion of the inspection,
                                        inspection , the inspector conducts a close-out
conference with the mine operator and miners' representative,
                                                 representative, as appropriate, to review
all enforcement actions. A submitted inspection report documents the inspection and
the data are entered into MSIS.

In response to the recommendation of the IG, MSHA will consider inspection data
preliminary until the supervisor can validate the inspection report. MSHA is exploring
ways to expedite the supervisor'S
                       supervisor's review and final data entry.

We appreciate your acknowledgement that MSHA officials had identified mine status
classifications as an issue and have been working for the past 7 months to develop




                                                                MNM Safety and Health Inspections
                                            29                      Report No. 05-11-004-06-001
                                           U.S. Department of Labor – Office of Inspector General




                                             4



more objective, data driven criteria for assigning a mine's status. This effort will
promote consistency in mine status determinations and allow MSHA to more effectively
allocate limited inspection resources.

Although we welcome the independent analysis provided by the DIG,     DIG. we would like to
clarify one statement in your report.                                 ~MNMS&H
                                 report. The draft report stated that KMNMS&H pelfonns
these inspections to protect miner safety and health. · Although all of MSHA's activities
are taken to protect miner safety and health,                     -mine operators, with the
                                          health, Congress gave "mine
assistance of miners, the primary responsibility to prevent unsafe and unhealthful
                               mines. ~ We are concerned that your characterization of
conditions and practices in mines.-
MSHA's responsibilities may convey the wrong message relative to primary
responsibility for miners' safety and health. MSHA cannot be in every mine,mine, every day,
                                                                                        day,
on every shift. That is why miners are safest when operators take responsibility for
antiCipating,, recognizing
anticipating   recognizing,, and eliminating or controlling hazards. Operators cannot wait
to correct hazards until after MSHA cites them. Operators' failure to recognize and
eliminate or control hazards - whether MSHA cites them or not - is what puts miners at
risk. A more appropriate statement would be: "MNMS&H performs these inspections to
promote safe and healthful workplaces for the Nation's miners.·
                                                            miners."

On page 7 in the second paragraph you identified the Southwest District, which should
be corrected as South Central District.




                                                                 MNM Safety and Health Inspections
                                            30                       Report No. 05-11-004-06-001
                                        U.S. Department of Labor – Office of Inspector General



                                                                               Appendix E
Acknowledgements

Key contributors to this report were Charles Allberry (Audit Director), S. Marisela
Sookraj (Audit Manager), Eric Rann, Charmane Miller, Kathleen Mitomi, Cassie Galang,
Carmelle Paytes, Mary Lou Casazza, and Ajit Buttar.




                                                          MNM Safety and Health Inspections
                                         31                   Report No. 05-11-004-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                               MNM Safety and Health Inspections
              32                   Report No. 05-11-004-06-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
